University of California, Berkeley
 Research Management Services
          Audit Report


     National Science Foundation
     Office of Inspector General


            May 21, 2003
            OIG 03-1-008
         In addition, we request that the Cost Analysis and Audit Resolution Branch
coordinate with the Department of Health and Human Services the audit resolution
activities necessary to resolve the RMS cost issue.

       We thank you and your staff for the cooperation extended to us during this audit.
If you have any questions about this report, please contact James Noeth on extension
5005, or William Harrison, on extension 4992.
                                EXECUTIVE SUMMARY

       This report provides the results of our audit of Research Management Services
(RMS) costs charged by the College of Engineering at University of California at Berkeley
(the University). The audit objective was to determine whether the RMS costs were
allowable as direct charges to NSF awards.

         The University incurs RMS costs in carrying out administrative functions such as
payroll, purchasing, and travel-forms processing, award-expenditure monitoring, project
accounting, and the receiving and inventorying of supplies. Although federal regulations
consider RMS costs to be indirect costs recoverable by an institution through its facilities
and administrative (F&A) rate, the University charged these costs separately as direct costs
of federal awards. As a result, the University inappropriately recovered administrative and
clerical costs greater than the maximum allowed under federal regulations.

         NSF first questioned the appropriateness of the University adding RMS charges as
direct costs to NSF award proposals in July 1994. In July 1995, NSF directed the University
to obtain written approval from the Department of Health and Human Services (HHS)
before including RMS charges on future proposals. In January 1997, HHS concluded that
the University's RMS costing methodology was not in compliance with OMB Circular
A-2 1, Cost Principles for Educational Institutions, for direct-charging administrative and
clerical costs to federal awards.

        Contrary to both NSF and HHS instructions, the University continued to direct-
charge RMS to NSF awards while simultaneously recovering the full amount of
administrative support service costs allowed through its approved F&A cost rate on the total
award. As a result, the University inappropriately charged NSF awards approximately $1.43
million for RMS and its associated F&A cost from July 1994 through April 2001.

       In response to our audit, the University agreed to repay $247,991 of the RMS
charged to NSF awards approved after March 1997, the date the University told HHS that
RMS costs would no longer be charged. For the remaining $1.18 million, the University
believes these costs are allowable because the RMS charges were included in award
budgets that were approved by NSF before the HHS decision.

        However, the manner in which the University presented its budget information
made it difficult to identify the unallowable charges. RMS charges were either
inaccurately proposed in the budget or not specifically identified at all. Additionally, the
University has the ultimate responsibility for ensuring that its award proposals only
request funds that "are not precluded by specific program guidelines or applicable cost
principles." Therefore, we recommend that NSF's Division of Grants and Agreements
and Division of Acquisition and Cost Support direct the University to repay NSF the
remaining $1.18 million of questioned RMS and related F&A costs claimed from July
1994 to April 2001 (see Appendix A).
	




                                   TABLE OF CONTENTS



    Introduction                                            1
    Objectives, Scope, and Methodology                      1
    Audit Results                                          2
    Appendix A: Schedule of Questioned RMS Costs            8
    Appendix B: University Response                        14


    ACRONYMS

    DA           Departmental administration (costs)
    F&A          Facilities and administrative (costs)
    DHHS         Department of Health and Human Services
    ORU          Organized Research Units
    OMB          Office of Management and Budget
    PI           Principal Investigator
    RMS          Research Management Services (costs)
                                   INTRODUCTION

Background

       The University of California at Berkeley (the University) is one of NSF's top 50
funded institutions receiving approximately $67 million annually in research, education,
and major research equipment support from the NSF. Further, for the 3-year period
ended June 30, 2000, the University's College of Engineering (the College) had active
NSF awards totaling approximately $90 million.

        To facilitate and administer this significant research funding, the College has
established five Organized Research Units (ORUs), which according to University policy
"provide a supportive infrastructure for interdisciplinary research complementary to the
academic goals of departments of instruction and research." The Colleges five ORUs are
the Earthquake Engineering Research Center, the Engineering Systems Research Center,
Electronics Research Laboratory, Institute for Environmental Science and Engineering,
and the Institute of Transportation Studies.

         Research Management Services (RMS) are part of the "supportive" infrastructure
of each ORU. RMS are routine administrative services such as payroll, accounting,
purchasing, and receiving and inventorying of equipment and supplies that are provided
to all research awards in the College. The University directly charged RMS costs to
some but not all of the College's awards through the application of a University approved
recharge percentage rate applied to an awards' direct salaries and wages. However,
although charged directly, RMS functions are similar to Departmental Administration
(DA) costs that are already recovered by the University through the application of a F&A
allocation added to each NSF award.

        From July 1, 1994, to April 30, 2001, the University charged approximately $5.7
million for RMS to the awards of 20 federal agencies, including the Department of Defense,
National Aeronautics and Space Agency, and the Department of Justice. NSF was charged
$1,428,971, or 25 percent of the total amount.

                  OBJECTIVES, SCOPE, AND METHODOLOGY

        The objective of our audit was to determine whether the University's RMS costs
were allowable as direct charges to NSF awards. Initially, our audit included all active
NSF awards managed by the College's five ORUs during the 3-year period ending June
30, 2000. However, based on information obtained in reviewing these awards, we
expanded the audit scope to include all RMS charges to active NSF awards from
July 1, 1994, to April 30, 2001.

       To address the audit objective, we reviewed NSF award files, University
expenditure report summaries, correspondence concerning RMS costing, prior OMB
Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations, and
University internal audit reports, and other documentation. We interviewed both
University and NSF staff who oversee the financial and administrative aspects of the
 awards. Our review of internal controls applicable to direct and indirect charges to NSF
 awards was limited to gaining an understanding of the RMS direct-costing methodology
 and other related University policies and procedures.

        We conducted our audit in accordance with the Comptroller General's
 Government Audit Standards and included such tests of accounting records and other
 auditing procedures, as we considered necessary to fully address the audit objectives.

                                        AUDIT RESULTS

        Contrary to OMB requirements and NSF and HHS instructions, the University
charged RMS costs as direct costs to NSF awards while simultaneously recovering such
support service costs through the application of its approved Facilities & Administrative
(F&A) rate to each NSF award. As a result, from July 1994 to April 2001, the University
inappropriately charged NSF awards approximately $1.43 million for RMS and
associated F&A costs.

OMB Policy for Administrative and Support Services Costs

        Educational institutions recover routine administrative and support service costs
through an F&A cost allocation added to each award. OMB Circular A-21, Cost
Principles for Educational Institutions, defines F&A as "costs that are incurred for
common or joint objectives and, therefore, cannot be identified readily and specifically
with a particular sponsored project, an instructional activity, or any other institutional
activity."' An important component of F&A costs is departmental administration
expenses (DA).      Specifically, DA costs are those "incurred for administrative and
supporting services that benefit common or joint department activities or objectives in
academic Deans' offices, academic departments and divisions, and organized research
units " [emphasis added].

        Effective October 1, 1991, OMB Circular A-21 limited the administrative portion
of F&A cost recovery to 26 percent of modified total direct costs. In 1993, Circular A-21
was updated and specified in Section F.6.b. that "salaries of administrative and clerical
staff [in academic departments] should normally be treated as F&A costs." Direct
charging of these costs may be appropriate where ... the support is significantly greater
than the routine level. The section provides examples of such circumstances and requires
that the costs meet criteria and that the grantee (1) explicitly budgets these costs, (2)
identifies the individuals involved with the specific project or activity, and (3) justifies
the direct charges to the satisfaction of the awarding agency.

        The Cost Accounting Standards Board applied four standards to all federal grants
and contracts at Universities in 1996. Relevant to our review is CAS 9905.502, which is
reflected in Circular A-21, Section C.11., which states "no final cost objective shall
have allocated to it as a direct cost any cost, if other costs incurred for the same
purpose, in like circumstances, have been included in any F&A cost pool to be
allocated to that or any other final cost objective" [emphasis added].


       F&A costs are synonymous with the term "indirect costs."
                                                 2
Inconsistent Costing Leads to Excessive Charges

        Contrary to federal regulations, the University added administrative and clerical
costs as RMS charges directly to NSF awards. At the same time, the University
recovered similar administrative support service costs on those same awards through the
application of its approved F&A rate.

       Each of the College's five ORU managers and University documents described
RMS-funded personnel as performing routine administrative functions. These services
included:

•   Processing forms and ensuring policy compliance with policies and procedures for
    purchasing, travel, and other expenses;
•   Preparing payroll forms, collecting time cards, recording and reconciling leave
    accrual;
•   Receiving and preparing inventory of equipment and supplies; and,
•   Project accounting activities, including maintaining detailed records of project costs,
    preparing expense, cost-sharing, and final project close-out reports, developing
    monthly financial statements, and conducting audits for grant compliance, cost
    sharing reports and final close-out reports.

        In other academic units, the University supported these same administrative
services through its F&A cost recovery. Even the RMS staff job descriptions were in the
standard administrative and financial series included in the University's F&A pool, i.e.,
financial assistants, administrative assistants, clerks, work-study clerk/secretary, and
payroll/personnel assistant. Therefore, because administrative "costs incurred for the
same purpose, in like circumstances, have been included in [the University's] F&A cost
pool," the RMS direct-charging practices used by the College were not in compliance
with OMB Circular A-21 and the Cost Accounting Standards.

         During the audit period, the administrative component of the University's F&A
rate was capped at 26 percent of MTDC as required by OMB Circular A-21, and
therefore, the University recovered its full allocation of DA-type administrative costs
through the application of its F&A rate. However, in addition to the F&A cost recovery,
the College charged NSF awards directly for RMS administrative and clerical costs.
Therefore, the recovery of both indirect F&A costs and direct RMS costs resulted in
excessive charges to NSF because the University exceeded the administrative cost
li mitation imposed by OMB. Further, the re-allocation of RMS costs to the DA
administrative pool of the University F&A rate would not result in the University
recouping more indirect costs from the government because the administrative
component of the F&A is by regulation capped at 26 percent.

NSF Questions Appropriateness of RMS Costs in 1995

        NSF first questioned the appropriateness of the University's RMS charges in July
1994 when it requested that the University provide documentation supporting the RMS
rate used for allocating such costs to a specific award proposal under review. In a July
                                            3
13, 1995 letter, the University described the College's RMS costs and requested that NSF
allow RMS costs as an Other Direct Costs line item in the College's awards. Their
position was that "from a functional standpoint the costs associated with these offices are
separate and distinct from departmental administrative costs as defined in section F.6 of
OMB Circular A-21..."

       In a July 20, 1995, response, NSF officials stated the Foundation " ... will
consider funding these costs for future awards when we have written approval from
your cognizant negotiation agency (DHHS) of the appropriateness of the method
[emphasis added] used by the College in accounting for costs that appear to be similar to
departmental administration costs included in the regular university rate which under
OMB A-21 cost principles is currently capped at 26%." In response, the University
submitted a RMS proposal to HHS, the Federal agency authorized to approve the
University's award costing plans.

 HHS Denies the University's RMS Proposal

       HHS reviewed the proposal and, on January 15, 1997, concluded that the RMS
costing methodology was not in compliance with OMB Circular A-21, Cost Principles
for Educational Institutions, for direct charging these research support costs to Federal
awards. Specifically, HHS found that the College's five ORUs did not constitute a
"major project" as required by A-21 for direct-charging additional administrative support.
In addition, HHS stated that direct charging of administrative costs to federal awards
must "be justified to the satisfaction of the awarding agency" and be supported by
adequate time and efforts records.

        The University did not meet these conditions. NSF's "satisfaction" could not be
attained because the manner in which the University presented its budget cost
information did not allow for RMS costs to be readily recognized by NSF reviewers in 79
percent of the NSF-approved award budgets. RMS charges were either inaccurately
proposed or were not explicitly identified. Additionally, because RMS costs were pooled
and allocated by the University to NSF awards using a percentage calculation, the RMS
charges were not supported by time and effort records supporting the RMS costs as direct
charges to specific awards.

        Specifically, we reviewed how RMS costs had been represented in the 276
budgets of the 107 active University awards in the three-year period ending June 30,
2000. Our analysis disclosed that 30 percent of the budgets inaccurately included RMS
costs as part of Personnel costs. However, the University did not charge these costs as
direct personnel costs, but instead, pooled the RMS costs and charged a percentage to
NSF awards as Other Direct Costs. As such, the University's method to propose the
RMS charges was inconsistent with how RMS costs were charged to NSF awards.
Additionally, another 49 percent of the award budgets did not identify or describe the
RMS charges in any way. Consequently, NSF was not aware of the specific RMS
charges that were added to its awards.

       As a result, the University improperly charged $1,015,967 for RMS costs and
recovered another $413,004 through the application of its approved F&A rate to the RMS
                                            4
 charged (see Appendix A). Thus, the University charged a total of $1,428,971 in
 unallowable RMS and related F&A costs to NSF awards from July 1, 1994 through April
 30, 2001.

       In response to our audit, the University agreed to repay $247,991 of the
$1,428,971. This amount represents the RMS charged to NSF awards approved after
March 3, 1997, the date the University told HHS that the charging of RMS to federal
awards was discontinued. However, the University considers the remaining $1,180,980
allowable because RMS charges were included in NSF-approved award budgets before
the HHS decision date.

        We do not agree with the University. Because most of the University's proposed
award budgets either did not include or inaccurately reflected the RMS charges, it was
difficult, if not impossible to determine that the proposals included unallowable RMS
charges.

        NSF's grant conditions state "the awardee has full responsibility for the conduct
of the ... award and for adherence to the award conditions. Although the awardee is
encouraged to seek the advice and opinion of NSF on special problems that may arise,
such advice does not diminish the awardee's responsibility for making sound scientific
and administrative judgments and should not imply that the responsibility for operating
decisions has shifted to NSF." Thus, the University ultimately is responsible for the grant
costs claimed and should not attempt to shift the responsibility for the unallowable RMS
costs to NSF grants officials.

        The underlying managerial cause for adding administrative charges to awards was
that the University had under-funded the cost of award administration at the College
despite recovering the full administrative F&A costs allowed by OMB Circular A-21
from the awards. To cover the shortfall in their budgets for administrative personnel
costs, the ORUs added RMS charges to the awards. The University justified the RMS
charges by claiming the personnel were not covered by the DA component of the F&A
cost rate, thus misrepresenting the services to NSF and HHS as distinct from routine
award administration.       By not categorizing its costs properly as department
administration, the University violated the requirements of OMB Circular A-2 1.

        Finally, the University certifies to NSF that each award proposal is accurate and
complete and agrees to accept the obligation to comply with award terms and conditions.
NSF's Grant Proposal Guide specifies that "the proposal may request funds under any of
the categories listed so long as the time and amount are considered necessary to perform
the proposed work and are not precluded by specific program guidelines or applicable
cost principles." RMS charges clearly are precluded by the applicable cost principles as a
direct charge to NSF awards. Therefore, the University did not exercise its responsibility
for ensuring that the award administration costs were properly categorized and funded,
and that the proposal only requested costs allowed by applicable cost principles.

Recommendations: We recommend that the Division of Grants and Agreements and
Division of Acquisition and Cost Support direct the University to:


                                            5
1. Repay $1,428,971 of questioned RMS and related F&A costs claimed for the period
   July 1, 1994, through April 30, 2001.

2. Discontinue the practice of direct charging routine administrative and clerical services
   costs to NSF awards unless the specific requirements of OMB Circular A-21, Section
   F.6.b. are met and justified to the satisfaction of the awarding agency.

University Comments

        The University did not concur with the dollar amount questioned. The University
maintains that many of the costs incurred from 1994 to 1997 were consistent with OMB
Circular A-21 guidance and were budgeted accordingly. Further, the 1997 HHS guidance
was silent regarding the treatment of pre-1997 RMS costs. The University also disagreed
with our statement that the underlying managerial cause for this issue was under-funding
the cost of award administration at the College.

      The University concurred with Recommendation 2 stating that it implemented the
recommendation in August 2000 during audit fieldwork.

The University's full response is at Appendix B to this report.

OIG Response

        The University did not explain how the RMS costs were consistent with OMB
guidance. The applicable OMB Circular A-21 guidance provides three critical factors in
determining whether departmental administration is allowable as a direct charge to
federal awards. First, the federally funded project must require "an extensive amount of
administrative or clerical support which is significantly greater than the routine level
of such services provided by academic departments." [Emphasis added]. Second, the
individual involved must be specifically identified with the project. Finally, the awardee
project must explicitly budget for the administrative services in the federal project
budget.

        We maintain that RMS administrative services were not greater than the routine
level of such services provided by academic departments. Our conclusion is based on
both written and oral descriptions of RMS activity provided by the University and the
fact that other academic units on campus recover the cost of these services through the
application of the federally-approved F&A rate. In addition, RMS staff cannot be
specifically identified with individual projects because the University did not maintain
activity reports documenting this activity by award. Finally, in only 8 of the 107 NSF
awards reviewed were RMS costs explicitly budgeted. Therefore, we do not believe the
University substantially met any of the three critical factors for allowability.

        Finally, OMB Circular A-21 limits administrative cost recovery to 26 percent of
modified total direct costs. Because the University recovered the cost of administrative
services both directly as RMS and indirectly as F&A, it exceeded the limitation imposed by
OMB. Therefore, because the University did not satisfy the applicable criteria necessary to


                                            6
establish cost allowability and exceeded the administrative cost limitation imposed by
OMB, the questioned costs remain unchanged.




                                          7
	




                    National Science Foundation Office of Inspector General                         APPENDIX A
                              University of California at Berkeley

                        Schedule of Questioned RMS and Related F&A Costs
                         For the Period July 1, 1994, through April 30, 2001

                                                                   Related
                                                 RMS               Indirect
        Award Number                            Charges             Costs              Total
    Identifiable NSF Awards
       MIP - 8958568                        $        2,308     $            23I    $       2,539
      CMS - 8996309                                     199                 -                199
      CCR - 9005448                                     (75)                (37)            (112)
     DMR - 9010908                                  2,733                1,368             4,101
       CTS - 9057258                                3,456                   -              3,456
      DES - 9057298                                 2,884                   -             2,884
      CTS - 9057420                                 2,828                   -             2,828
       MIP - 9057466                                2,418                  242            2,660
        IM - 9058427                                2,369                  237            2,606
      CCR - 9058440                                    872                    87             959
      CMS - 9I00386                                 I,618                  807            2,425
      MIP - 9114168                                 1,172                  584            1,756
      MIP - 91I6578                                 4,847               2,418             7,265
        IRI - 91I6860                               2,81I               1,401             4,212
      CCR - 91I7028                                 4,432               2,211             6,643
      MIP - 9117328                                 2,27I               1,132             3,403
     CMS - 911993I                                    865                 303             1,168
     CMS - 912I943                                  5,969               2,987             8,956
     DMR - 9123279                                     I51                  75              226
      ECS - 94I7370                                2,783                1,387            4,170
       IRI - 9157051                               2,074                  5I9            2,593
      ECS - 9157089                                 1,235                 124             1,359
      ECS - 9196076                                2,940                  716            3,656
      CCR - 920I092                                 1,49I                 742            2,233
      MIP - 9201605                                   325                 162               487
     CCR - 92I0260                                 I,238                  124            I,362
       IRI- 9210327                                     27                -                  27
      ECS - 9211025                                   4I6                 I04               520
       IRI - 92I1512                               4,118               2,055             6,I73
     CMS - 92I2737                                 I,718                  857            2,575
     DMR - 92I4370                                    852                425             1,277
     MIP - 9214951                                 2,654               I,323             3,977
     CCR - 92I4963                                 2,106               I,050             3,156
      CTS - 9215617                                    26                   13               39
      CTS - 92I5889                                3,976               1,982             5,958
     CMS - 9216069                                 8,335               4,168            12,503


                                                    8
                                                               APPENDIX A
                                 Related
                    RMS          Indirect
  Award Number     Charges        Costs           Total
  ECS - 9217500         4,802          2,388          7,190
 CMS - 9218300           1,369            356          1,725
  ECS - 9220855         2,053          1,023          3,076
DMR - 9222644           2,709          1,351          4,060
 CMS - 9222753          2,209          1,102          3,311
 CCR - 9253705         (1,248)       (1,184)         (2,432)
 CCR - 9257974             967               96       1,063
  ECS - 9296058            310             -             310
 DMI - 9300025          5,225          2,607          7,832
 MM - 9301012           2,180          1,087          3,267
 DMI - 9301269          4,549         2,267           6,816
CMS - 9301307           1,960            978          2,938
 BCS - 9301989          1,582            784          2,366
 ECS - 9302926          2,775          1,384          4,159
 EAR - 9304481          3,504          1,749          5,253
 MSS - 9308339          2,220             -           2,220
 DMI - 9309430          1,207            121          1,328
CDA - 9309729             764             -             764
DDM - 9309925              107              53           160
 CCR - 9310214          1,145           570           1,715
 ASC - 9313958          5,245         2,617           7,862
CMS - 9314438         31,148         11,026         42,174
 CTS - 9317708          3,666         1,827          5,493
  IRI - 9319412         2,702         1,346          4,048
CCR - 9320588          4,862          2,424          7,286
 MIP - 9321302          7,363         3,673         11,036
 DMI - 9322807            747           373           1,120
CMS - 9358052          7,644               41        7,685
 ECS - 9358284        12,764          1,276         14,040
CMS - 9396190          3,777            200          3,977
GER - 9396288          6,200             -           6,200
DMR - 9400439          2,493          1,243          3,736
   IRI - 9400773       4,431          2,210          6,641
 EIA - 9401156            (74)           -              (74)
DMS - 9401834             453           224             677
 CTS - 9402911         3,940          1,964          5,904
ASC - 9404748              45           -                45
 INT - 9408165           (400)         (104)          (504)
 ECS - 9408957         3,280          1,637          4,917
 ECS - 9409730         2,062            -            2,062
  IRI - 9411334      157,120        78,601        235,721
 INT - 9413186            339           169            508



                        9
                                                               APPENDIX A
                                  Related
                    RMS           Indirect
   Award Number    Charges         Costs         Total
  CTS - 9415686         6,364           3,133         9,497
 CMS - 9416261            629              313          942
 CMS - 9416265            557              278          835
 CMS - 9416441            895              446        1,341
 CMS - 9416457            796              396       1,192
 CMS - 9416516            906              452       1,358
DMR - 9417185             200              100          300
DMR - 9417763           7,904          3,943        11,847
 EEC - 9418534          8,819          4,392        13,211
  ECS - 9419112        4,627           2,308         6,935
 EEC - 9420604             (97)            -            (97)
 DMI - 9421194         3,654           1,822         5,476
 NCR - 9422513        10,499           5,245       15,744
 AST - 9423305         2,749           1,372         4,121
 CCR - 9453532         4,810             481         5,291
 BES - 9457246          1,424             142        1,566
 CCR - 9457812            836            661         1,497
CMS - 9504403             497            248           745
  IRI - 9505561       14,725           7,358       22,083
 PHY - 9505621         3,323           1,658        4,981
  INT - 9507653          414             207           621
 ECS - 9509539         1,280             639        1,919
 ECS - 9509800         8,601           4,304       12,905
CDA - 9512332            478             239           717
CMS - 9520108          1,021             265        1,286
CMS - 9520204            429             112           541
CCR - 9520703          1,312             655        1,967
 EEC - 9521232           974              -            974
DMR - 9522134          7,286          3,633       10,919
 DMI - 9524972           192                96        288
CMS - 9525946            694             180          874
 EEC - 9527545         1,425                 4      1,429
 ECS - 9527626        5,612           2,809         8,421
 CTS - 9528351         1,297             647        1,944
 ECS - 9529658        8,294           4,154       12,448
   HS- 9531837       10,103           4,991       15,094
   IRI - 9596025     13,738           6,906       20,644
   IRI - 9596047         256             -            256
   IRI - 9596091      6,578             658        7,236
EEC - 9603572         3,875           1,449        5,324
DMI - 9610046         1,969             983        2,952
CMS - 9612136         4,519           2,266        6,785



                        10
                                                              APPENDIX A
                                 Related
                    RMS          Indirect
  Award Number     Charges        Costs          Total
   IRI - 9612491        1,117           557          1,674
 CMS - 9612670        41,365         14,593        55,958
 EEC - 9615468            210           105           315
 EEC - 9615774         8,926          4,481        13,407
 CCR - 9616139           344            172           516
DMR - 9617392          4,273          2,145         6,418
 CMS - 9617547              87            23           110
  ACI - 9619020       34,223            -          34,223
 CMS - 9622284         4,898          2,454         7,352
 BES - 9623385            -             100           100
 CMS - 9623979         1,072            525         1,597
CMS - 9624978          6,627            -           6,627
 CMS - 9624980         1,912                        1,912
 EEC - 9625456        24,709         4,669         29,378
 CDA - 9625910           775             -            775
 CCR - 9626361        11,876         5,956         17,832
CMS - 9626586          6,269         3,148          9,417
 EAR - 9628306         2,079          1,046         3,125
 ECS - 9628420         8,615         4,321         12,936
NCR - 9628818         16,360         8,199         24,559
 CCR - 9632345        10,195         5,107         15,302
 ECS - 9632707         1,877           937          2,814
CMS - 9632828          1,225           611          1,836
   11S- 9634215        6,762         3,385         10,147
 ECS - 9634217         7,383         3,716         11,099
  IRI - 9696061        2,631            -           2,631
 ECS - 9696063         1,891            189         2,080
 CTS - 9696085         3,097         1,550          4,647
 CCR - 9696091         2,790         1,402          4,192
 CCR - 9696122         4,516           452          4,968
CMS - 9696241            639           173            812
 EEC - 9701568           216              81          297
CMS - 9703000            375           187            562
DMR - 9703427            125              62          187
 ECS - 9704415         2,184            -           2,184
CDA - 9705022            110            -             110
 CTS - 9705584           -                 (2)          (2)
  IRI - 9712131          -             (12)           (12)
 BES - 9712179        2,619          1,320          3,939
CCR - 9712410          1,118           560          1,678
 EEC - 9712750        5,628          2,831          8,459
 EEC - 9714141           426           -              426



                       11
	




                                                                                            APPENDIX A




                                                         Related
                                       RMS               Indirect
        Award Number                  Charges             Costs              Total
       INT - 9725220                       3,273              1,631               4,904
      CDA - 9726362                            (1)                -                   (1)
       EIA - 9726389                     (13,202)            (6,654)            (19,856)
      CMS - 9727002                        2,398                480               2,878
       ANI - 9734515                       1,294                652               1,946
      CTS - 9796132                        7,620              2,657              10,277
       EIA - 9802069                            1               149                 150
      CMS - 9812531                        3,516              1,752               5,268
      EEC - 9813302                        3,038              1,531               4,569
        IIS - 9817353                          (1)                 34                33
      ECS - 9873086                             2                    1                 3
        IIS - 9873759                      1,381                696               2,077
      BCS - 9906691                       (1,293)                -               (1,293)
      CMS - 9988883                        4,996              2,491               7,487
      CMS - 0085298                          281                   61               342
                  Subtotal        $     779,949      $     307,745       $   1,087,694

    Unidentifiable NSF Awards :                                                     -
     140-20402                            1,382                690               2,072
     ECS-00012                              143                   71               214
     19-000083                            1,557                785              2,342
     533593-55660                         3,766              1,880              5,646
     94-147                               6,028              3,006              9,034
     A-100035                               521                262                 783
     CG-9518                                276                138                414
     Cornell-19579-5072                  12,456              5,537             17,993
     F000439                              2,551              1,279              3,830
     FD94-37102-0840                        307                 -                 307
     R91167                               1,195                596              1,791
     R91168                                 699                349              1,048
     R91241                               1,863                930              2,793
                                  $     32,744       $      15,523       $     48,267




                                           12
	




                                                                                                       APPENDIX A




                                                                       Related
                                                     RMS               Indirect
         Award Number                               Charges             Costs              Total

                                                $      812,693     $     323,268      $    1,135,961
    Add: FY 2001 UCB Adjustments (1)                   104,685            43,413             148,098
    Add: FY 1995 - Extrapolated (2)                     98,589            46,323             144,912
     Total Questioned Costs                     $    1,015,967     $     413,004      $    1,428,971



    (1) Credit adjustments for amounts UCB determined to be incorrectly charged.

    (2) RMS costs reported by UCB included extrapolated charges for the period
        July 1, 1994, to June 30, 1995, based on actual costs for June 1995 only. The NSF
        portion of FY 1995 RMS costs is based on the percentage of RMS charged
        to NSF relative to all federal agencies (22.77 percent of total reported RMS costs).

      ((22.77 percent * $811,156) - $39,788))




                                                        13
                                                                                                                                           APPENDIX B'


BERKELEY   •   DAVIS   •   IRVINE   •   LOS ANGELES   •   MERCED   •   RIVERSIDE   •   SAN DIEGO   •   SAN FRANCISCO




                                                                                                              BERKELEY, CALIFORNIA 94720-1100




                                                                                                             March 25, 2003




      Ms. Jayne Hornstein
      National Science Foundation
      Office of the Inspector General, Office of Audit
      4201 Wilson Boulevard, Room 1135S
      Arlington, VA 22230


     Re:. Response to Draft Audit Report Entitled, "University of California, Berkeley Research
     Management Services."


     Dear Ms. Hornstein:

     I am writing to you in response to the National Science Foundation (NSF) draft audit report
     entitled, "University of California, Berkeley Research Management Services." This audit
     covered the period from July 1994 through April 2001 and focused on-direct charges for research
     management services (RMS) at the College of Engineering. The primary issues in the findings
     and recommendations in the draft report focus on interpretations of the 1994 revisions to OMB
     Circular A-21, Section F.6.b, pertaining to the classification of departmental administration
     expenses, and the subsequent incorporation of Cost Accounting Standards in OMB Circular
     A-21 on May 8, 1996.

     'Me :following represents the University of California, Berkeley's response to portions of the
     audit results section of the report and to the specific recommendations contained therein.


    Audit Results

    The audit paraphrases paragraph (2) of Section F.6.b of OMB Circular A-21 as the basis for the
    report's primary finding regarding the disallowance of direct charges for research management
   services costs. The actual paragraph states that "The salaries of administrative and clerical staff
   should. normally he treated as T &A costs. Direct charging of these costs may be appropriate




                                                                                       14
                                                                                   APPENDIX B

Ms. Jayne Hornstein
National Science Foundation
Office of the Inspector General, Office of Audit
March 25, 2003
Page 2




where a major project or activity explicitly budgets for administrative or clerical services and
individuals involved can be specifically identified with the projector activity. `Major project' is
defined as a project that requires an extensive amount of administrative or clerical support,
which is significantly greater than the routine level of such services provided by academic
departments. " The campus maintains that many of the costs that were incurred from 1994-1997
were consistent with this definition and were budgeted accordingly.

As noted in the report, NSF first questioned RMS charges in July 1994. In July 1995, NSF
informed the University that it would consider funding of such costs if we obtained written
approval from our cognizant negotiation agency. The University restructured its research
support operations within the College of Engineering organized research units and sought
approval from Health and Human Services (HHS) for its redesigned charging methods. HHS
informed the University in January 1997 that RMS charges were unallowable unless specifically
approved on a case-by-case basis by the awarding agency. The notice was silent regarding the
treatment of such costs during the period from July 1994 to January 1997. It was not clear to the
University that such costs during the intervening period would be disallowed.

The Audit Results section of the draft report includes a sentence that states "the underlying
managerial cause for adding administrative charges to awards was that the University had under-
funded the cost of award administration at the College despite recovering the full administrative
F&A costs allowed by OMB Circular A-21 from the awards." We do not concur with this
finding, nor do we believe that it is factual. The comment is apparently based on the opinions of
some of the staff within the organized research units who were interviewed during the audit. The
auditors did not verify these assertions with. University management.


Response to the Recommendations

1. Based on our disagreement with some of the audit results, we do not concur with the dollar
   amount cited in this recommendation. As noted in the report, we have already repaid a
   portion of the disallowed costs that were incurred after January 1997. We are committed to
   reviewing the questioned costs and mitigating circumstances surrounding them in order to
   reach an appropriate resolution to this matter.




                                             15
                                                                                   APPENDIX B

Ms. Jayne Hornstein
National Science Foundation
Office of the Inspector General, Office of Audit
March 25, 2003
Page 3




2. We concur with the recommendation to discontinue the practice of direct charging for routine
   administrative and clerical services costs. We implemented this recommendation in August
   2000 through a communication to the campus during the field work of this audit. We believe
   that the University is in compliance with the specific requirements of OMB Circular A-21
   relative to the direct charging of administrative costs to federal awards.

Please contact me regarding this response to the draft audit report. The University is committed
to resolving these matters as expeditiously as possible.




                                                   16
